           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   INDIRECT COSTS CLAIMED BY THE
       CONNECTICUT DISABILITY
      DETERMINATIONS SERVICES


   September 2004   A-15-03-23041




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY

MEMORANDUM

Date:   September 7, 2004                                                                Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Assistant Inspector General
         for Audit

Subject: Indirect Costs Claimed by the Connecticut Disability Determination Services
        (A-15-03-23041)


        OBJECTIVE

        We conducted this audit at the request of the Social Security Administration (SSA). Our
        objectives were to:

        •   determine whether the indirect costs claimed by the Connecticut Disability
            Determination Services (CT-DDS) on the State Agency Reports of Obligations for
            SSA Disability Programs (Form SSA-4513) for the period October 1, 2001 through
            September 30, 2003, were allowable and properly allocated;

        •   determine what indirect services were received by the CT-DDS from the State of
            Connecticut; and

        •   determine the reasonableness of the indirect costs allocated to the CT-DDS.

        BACKGROUND

        Disability determinations under SSA’s Disability Insurance and Supplemental Security
        Income programs are performed by Disability Determination Services (DDS) in each
        State or other responsible jurisdictions according to Federal regulations.1 In carrying
        out its obligation, each DDS is responsible for determining claimants’ disabilities and
        ensuring that adequate evidence is available to support its determinations.


        1
         42 United States Code (U.S.C.) § 421; 20 Code of Federal Regulations §§ 404.1601 et seq. and
        416.1001 et seq.
Page 2 - Manuel J. Vaz


SSA reimburses the DDS for 100 percent of the allowable expenditures reported
quarterly on Form SSA-4513. The expenditures include both direct and indirect costs.2

SSA requested this audit in response3 to a prior audit report Audit of the Administrative
Costs Claimed by the Connecticut Disability Determination Services (A-15-00-30016).
Specifically, SSA raised the issue of rising CT-DDS indirect costs as the result of the
State of Connecticut changing its methodology for determining indirect costs from an
indirect cost rate agreement to a Public Assistance Cost Allocation Plan (from this point
on referred to as the “Cost Allocation Plan”).

On June 28, 1994, the United States Department of Health and Human Services
(DHHS) Division of Cost Accounting (DCA) approved the Connecticut Department of
Human Resources (CT-DHR) indirect cost rate submission for State Fiscal Year
(SFY) 1993 (July 1, 1992 through June 30, 1993). The CT-DHR was the parent agency
for the DDS. The CT-DDS applied the federally approved indirect rate of 12.2 percent
to the direct salaries and wages in computing the indirect costs for Federal Fiscal Year
(FFY) 1993 (October 1, 1992 through September 30, 1993).

In calculating the 12.2 percent indirect rate, the CT-DHR excluded 100 percent of the
Department of Administrative Services – Bureau of Collection Services statewide
central service costs. It did this because these costs were associated with the collection
of child support payments, which only benefit the Child Support Enforcement, Title IV-D
program.4 In addition, the CT-DDS excluded approximately 99 percent of the Office of
the Attorney General statewide central service costs because the majority of these
costs were associated with the attorneys and support staffs who work primarily on the
Child Support Enforcement, Title IV-D program. The CT-DDS only received minor
benefits (approximately 1 percent) from the Office of the Attorney General statewide
central service costs for costs associated with reviewing any CT-DDS contracts (such
as contracts for medical services).

On July 1, 1993, the CT-DHR was merged into the Connecticut Department of Social
Services (CT-DSS), which is now the parent agency for the CT-DDS. Also, starting in
SFY 1994, the State of Connecticut changed its methodology for determining the
indirect costs allocated to the CT-DDS from an indirect cost rate5 to a Cost Allocation


2
  Direct costs can be identified specifically with a particular cost objective (Office of Management and
Budget (OMB) Circular A-87, Attachment A, § E.1). Indirect costs arise from activities that benefit
multiple State and Federal agencies but are not readily assignable to any one agency (OMB Circular A-
87, Attachment A, § F.1).
3
  SSA’s Boston Regional Commissioner Memorandum dated July 20, 2001.
4
  The Child Support Enforcement program was established in 1975 as Title IV-D of the Social Security
Act, Sec. 451 (42 U.S.C. § 651). Its purpose is to require States to provide a number of services
including locating noncustodial parents, establishing paternity, obtaining child and spousal support, and
assuring that assistance in obtaining support will be available to all children for whom such assistance is
requested.
5
  Indirect cost rate is a device for determining in a reasonable manner the proportion of indirect costs
each program should bear. It is the ratio (expressed as a percentage) of the indirect costs to a direct cost
base.
Page 3 - Manuel J. Vaz


Plan.6 The implementation of the indirect Cost Allocation Plan resulted in an increase in
indirect costs allocated to the CT-DDS. However, the State of Connecticut Office of
Policy and Management (CT-OPM) granted the CT-DDS a waiver of the increased
indirect costs from FFY 1994 through the 1st quarter of FFY 2003. This waiver was
granted because of the adverse impact on program services (i.e., reduction in services)
that would have resulted if the CT-DDS were assessed the full impact of the indirect
cost allocation charges, since SSA did not budget for the unexpected increase in
indirect charges. Therefore, for this period, the CT-DDS was allocated indirect costs at
the prior rate of 12.2 percent.

On June 10, 2003, DHHS-DCA approved the CT-DSS Cost Allocation Plan effective
July 1, 2001. Further, on June 19, 2003, the DHHS-DCA approved the amended
CT-DSS Cost Allocation Plan effective April 1, 2002. Therefore, starting in the
2nd quarter of FFY 2003, the CT-DDS was required to follow the federally approved Cost
Allocation Plan.

RESULTS OF REVIEW
The DHHS-DCA approved Statewide Cost Allocation Plan distributed several statewide
central service costs (including the Department of Administrative Services – Bureau of
Collection Services and the Office of the Attorney General) to the CT-DSS. The
CT-DSS further distributed these costs in accordance with the Cost Allocation Plan to
the CT-DDS. However, the CT-DDS did not receive any benefits from Department of
Administrative Services – Bureau of Collection Services because these costs were
associated with the collection of child support payments, which only benefit the Child
Support Enforcement, Title IV-D program. Also, the CT-DDS only received minor
benefits (approximately 1 percent) from the Office of the Attorney General statewide
central service costs associated with reviewing any CT-DDS contracts (such as
contracts for medical services).




6
 Public assistance cost allocation plan refers to a narrative description of the procedures that will be
used in identifying, measuring and allocating all administrative costs to all of the programs administered
or supervised by State public assistance agencies.
Page 4 - Manuel J. Vaz


Therefore, we disallowed $287,442 of the obligated $2,620,985 indirect costs as
follows:

                              Claimed       Disallowed
                 Year          Cost            Cost               Difference
                                      FFY 2002
           1st Quarter         $182,951             $0               $182,951
           2nd Quarter          184,390              0                184,390
           3rd Quarter          203,643              0                203,643
           4th Quarter          197,727              0                197,727
           2002 Total          $768,711             $0               $768,711

                                      FFY 2003
            st
           1 Quarter          $195,654              $0               $195,654
           2nd Quarter          346,879        142,355                204,524
           3rd Quarter          650,235        145,087                505,148
           4th Quarter          659,506              0                659,506
           2003 Total        $1,852,274       $287,442             $1,564,832

                 Total       $2,620,985          $287,442          $2,333,543

INDIRECT RATE AGREEMENT
(FFY 2002 THROUGH THE 1ST QUARTER OF FFY 2003)

The CT-OPM granted the CT-DDS a waiver of the increased indirect costs associated
with the Cost Allocation Plan that exceeded the prior indirect rate of 12.2 percent for
FFY 2002 through the 1st quarter of FFY 2003. This waiver was granted due to the
adverse impact on program services (i.e., reduction in services) which would have
resulted if the CT-DDS were assessed the full impact of the indirect cost allocation
charges, since SSA did not budget for the unexpected increase in indirect charges.
Therefore, for this period, the CT-DDS was allocated indirect costs at the prior indirect
rate of 12.2 percent.

We concluded that the CT-DDS correctly applied the federally approved indirect rate of
12.2 percent to the direct salaries and wages in computing the indirect costs allocated
to the CT-DDS for FFY 2002 through the 1st quarter of FFY 2003. We took no
exception to the $964,365 ($768,711 for FFY 2002 and $195,654 for the 1st quarter of
FFY 2003) obligated indirect costs.
Page 5 - Manuel J. Vaz


INDIRECT COST ALLOCATION PLAN
(2ND AND 3RD QUARTERs OF FFY 2003)

The CT-DDS calculated the $997,114 ($346,879 for the 2nd quarter of FFY 2003 and
$650,235 for the 3rd quarter of FFY 2003) obligated indirect costs for the 2nd and
3rd quarters of FFY 20037 based on the Cost Allocation Plan. However, we disallowed
$287,442 of the obligated $997,114 indirect costs or approximately 29 percent as the
result of the CT-DSS allocating the Department of Administrative Services – Bureau of
Collection Services and the Office of the Attorney General statewide central services
costs to the CT-DDS in a manner not consistent with the amount of benefit received.
Specifically, we excluded:

•   100 percent of the Department of Administrative Services – Bureau of Collection
    Services statewide central service costs. The CT-DDS historically excluded
    100 percent of the Department of Administrative Services – Bureau of Collection
    Services statewide central service costs in calculating the indirect rate since the
    costs were associated with the collection of child support payments which only
    benefit the Child Support Enforcement, Title IV-D program.

•   Approximately 99 percent of the Office of the Attorney General statewide central
    service costs. The CT-DDS historically excluded a majority (approximately
    99 percent) of the Office of the Attorney General statewide central service costs in
    calculating the indirect rate since the costs were associated with the attorneys and
    support staffs who work primarily on the Child Support Enforcement, Title IV-D
    program. The CT-DDS only received minor benefits (approximately 1 percent) from
    the Office of the Attorney General statewide central service costs associated with
    reviewing any CT-DDS contracts (such as contracts for medical services).

The CT-DSS disagreed with our results and stated that the primary responsibility of the
Department of Administrative Services – Bureau of Collection Services is to provide
billing and collection services, and to administer trust accounts for individuals in State
run facilities. Also, the CT-DSS stated that the Office of the Attorney General
represents and advocates the interests of the CT-DSS and provides investigation and
legal assistance for Affirmative Action complaints. However, the CT-DSS did not
provide any evidence that the CT-DDS received any benefits from Department of
Administrative Services – Bureau of Collection Services and the Office of the Attorney
General statewide approved central service costs.




7
  The indirect costs for the 3rd quarter of FFY 2003 are significantly greater than the indirect costs for the
2nd quarter of FFY 2003. The increase in indirect costs is the result of approximately $116,000 additional
indirect costs associated with termination leave payments not applicable to the 2nd quarter of FFY 2003.
Also, the CT-DSS implemented new allocation software (MaxCars) in the 3rd quarter of FFY 2003, which
allocated indirect costs in greater detail.
Page 6 - Manuel J. Vaz


OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
attachment A, C, 3, (a) states, “…a cost is allocable to a particular cost objective if the
goods or services involved are chargeable or assignable to such cost objective in
accordance with relative benefits received.” The risk of allocating the Department of
Administrative Services – Bureau of Collection Services and the Office of the Attorney
General statewide central services costs to the CT-DDS is increased if the Cost
Allocation Plan allocates these costs without taking into account the relative benefits
received. Therefore, these costs are not allocable to the CT-DDS because it only
benefits the Child Support Enforcement, Title IV-D Program. However, these costs may
be allowable8 and allocable to the Department of Health and Human Services, the
Office of Child Support Enforcement, Administration for Children and Families which
has Federal oversight responsibility for State Title IV-D Child Support programs.

ESTIMATED INDIRECT COSTS
(4TH QUARTER OF FFY 2003)

As of December 12, 2003, the CT-DDS estimated $659,506 obligated indirect costs for
the 4th quarter of FFY 2003. The CT-DDS did not have any support for this estimate;
therefore, we were unable to audit these indirect costs. The CT-DSS stated that it had
not calculated the 4th quarter indirect costs in accordance with the Cost Allocation Plan.
The CD-DSS is revising its cost allocation claims since July 2001 (the effective date of a
Cost Allocation Plan) to conform to the Cost Allocation Plan. Also, the CT-DSS
implemented new allocation software (MaxCars) in the 3rd quarter of FFY 2003.
Therefore, the CT-DDS is using the 3rd quarter of FFY 2003 as the template for the new
allocation software and will recalculate the 4th quarter of FFY 2003 once all the
allocation software corrections are complete.

When the CT-DSS recalculates the 4th quarter of FFY 2003 indirect costs based on the
Cost Allocation Plan, the CT-DSS should exclude the Department of Administrative
Services – Bureau of Collection Services and the Office of the Attorney General
statewide central service costs. Also, the CT-DDS should adjust the FFY 2003
unliquidated obligations of $1,348,059 (total FFY 2003 indirect cost obligation amount of
$1,852,274 less the disbursement amount of $504,215)9 and update the SSA-4513 for
the recalculated indirect cost amount.




8
  Section 455 (42 U.S.C. § 655) limits the amount paid to each State to either 80 percent for data
processing, 90 percent for paternity testing or 66 percent for operational costs.
9
  Form SSA-4513 as of September 30, 2003.
Page 7 - Manuel J. Vaz


RECOMMENDATIONS
We recommend SSA instruct the CT-DDS to:

1. Return $287,442 of unallowable indirect costs associated with the 2nd and
   3rd quarters of FFY 2003.

2. Ensure that the indirect costs for the 4th quarter of FFY 2003 indirect costs exclude
   costs for the Department of Administrative Services – Bureau of Collection Services
   and the Office of the Attorney General.

3. Ensure that SFY 2004 Cost Allocation Plan distributes statewide central service
   costs to the CT-DDS according to the relative benefits received in accordance with
   OMB A-87.

4. Request DHHS-DCA to audit the reasonableness of the proposed SFY 2004 Cost
   Allocation Plan statewide allocation methodology taking into account the issues
   discussed in this report. (If DHHS-DCA has already approved the SFY 2004
   Statewide Allocation Plan, SSA should request the DHHS-DCA revisit the statewide
   central service costs to ensure that the CT-DDS receives some relative benefit from
   these costs and amend the plan as needed.)

SSA COMMENTS

SSA agreed with our recommendations. The full text of SSA’s comments is included in
Appendix D.

STATE AGENCY COMMENTS

CT-DSS disagreed with our recommendations. Specifically, CT-DSS believes it has

•   properly allocated the Statewide Cost Allocation Plan costs because it allocated
    indirect costs in compliance with the approved Public Assistance Cost Allocation
    Plan; and

•   applied a reasonable approach to allocating indirect costs to benefiting agencies (not
    to benefiting programs within agencies) in accordance with OMB Circular A-87.

The full text of the CT-DSS’ comments is included in Appendix E.
Page 8 - Manuel J. Vaz


OIG RESPONSE
In our opinion, the allocation of statewide central services costs to the CT-DDS is not
reasonable, despite the fact it was approved by DCA. Moreover, DCA’s Public
Assistance Cost Allocation Plan approval letter states, “The implementation of the cost
allocation plan approved by this document may from time to time be reviewed by
authorized Federal staff. The disclosure of inequities during such review may
necessitate changes to the plan.” We believe that the current allocation is not equitable
to the CT-DDS. In fact, the CT-DSS discussed this inequity in its response when it
stated, “While the CT-DDS may not have received any direct benefits from these
services during the quarters in question, the services offered by Department of
Administrative Services and Office of Acquisition and Grants are ones that at times
could be critical to the CT-DDS.”

Additionally, OMB A-87 states:

     A cost is allocable to a particular cost objective (function, organizational subdivision,
     contract, grant, or other activity for which cost data are needed and which costs are
     incurred) if the goods or services involved are chargeable or assignable to such cost
     objectives in accordance with the relative benefits received.10

Thus, the statewide central service costs should be allocated to the CT-DDS in
accordance with the relative benefits received. Furthermore, the DHHS, as mandated
by OMB A-87, issued A Guide for State, Local and Indian Tribal Governments – Cost
Principles and Procedures for Developing Cost Allocation Plans and Indirect Cost Rates
for Agreements with the Federal Government (ASMB C-10). This guide is designed to
assist State, local, and Indian tribal governments in applying OMB A-87. In response to
a specific question, the guide “…requires that where a cost or activity benefits multiple
activities or programs, those costs must be allocated in accordance with the relative
benefits received by each activity or program. This requirement is an underlying
principle of cost allocation.”11

In our opinion, allocation to the CT-DDS of costs for the specific services discussed in
this report is not reasonable, despite the fact that the allocation plan used to allocate the
costs was approved by DCA. We believe SSA’s proposed actions will reasonably
distribute the cost of these services to the CT-DDS, and we encourage SSA to move
forward with its planned corrective actions.




                                             S
                                             Steven L. Schaeffer

10
 OMB Circular A-87, Attachment A, § C.3a.
11
 ASMB C-10, Attachment A – General Principles for Determining Allowable Costs, Section 2.11
Questions and Answers on Attachment A, Question 2-12.
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Comparison of Indirect Costs (Indirect Rate vs. Indirect Cost Allocation
             Plan)

APPENDIX D – SSA Comments

APPENDIX E – State Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
CT-DDS          Connecticut Disability Determination Services
CT-DHR          Connecticut Department of Human Resources
CT-DSS          Connecticut Department of Social Service
CT-OPM          Connecticut Office of Policy and Management
DCA             Division of Cost Accounting
DDS             Disability Determination Services
DHHS            Department of Health and Human Services
FFY             Federal Fiscal Year
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
OIG             Office of the Inspector General
OMB             Office of Management and Budget
SSA             Social Security Administration
SFY             State Fiscal Year
U.S.C.          United States Code
                                                                          Appendix B

Scope and Methodology
The Social Security Administration (SSA) requested this audit in response1 to a prior
audit report Audit of the Administrative Costs Claimed by the Connecticut Disability
Determination Services (A-15-00-30016) issued September 17, 2001. Specifically, SSA
raised the issue of the rising Connecticut Disability Determination Services
(CT-DDS) indirect costs as the result of the State of Connecticut changing its
methodology for determining indirect costs from an indirect cost rate agreement to a
Cost Allocation Plan. Therefore, we limited our audit to the impact the approved
Connecticut Department of Social Services (CT-DSS) Public Assistance Cost Allocation
Plan (effective July 1, 2001) had on the CT-DDS indirect costs reported on the State
Agency Report of Obligations for SSA Disability Programs (Form SSA-4513) for Federal
Fiscal Years (FFY) 2002 and 2003. To complete our objectives, we:

•     Reviewed Office of Management and Budget Circular (OMB) A-87, Cost Principles
      for State, Local and Indian Tribal Governments, SSA’s Program Operations Manual
      System DI 39500 DDS Fiscal and Administrative Management, and other
      instructions pertaining to administrative costs incurred by CT-DDS.

•     Reviewed the State Fiscal Year 2001 and 2002 single audits for the State of
      Connecticut.

•     Interviewed staff at the CT-DDS and its parent agency CT-DSS, Department of
      Health and Human Services – Division of Cost Allocation, and MAXIMUS
      (CT-DSS contractor).

•     Reviewed CT-DDS’ computation using an indirect rate. The specific audit steps
      performed consisted of the following:

         9 Verified the approved indirect rate was used in FFYs 2002 and 2003,

         9 Verified the approved indirect rate was the “final” indirect rate,

         9 Verified the approved indirect rate was applied to the appropriate base, and

         9 Re-calculated indirect amounts to assure accuracy.

•     Reviewed CT-DDS’ computation of indirect costs for FFY 2003. The specific audit
      steps performed consisted of the following:

         9 Verified the statewide indirect cost amount,

1
    SSA’s Boston Regional Commissioner Memorandum dated July 20, 2001.


                                                B-1
       9 Identified the accounts included in the indirect cost pool,

       9 Determined how indirect cost pools were allocated,

       9 Determined if the indirect cost allocation was consistent with the approved
         Cost Allocation Plan, and

       9 Determined if the allocation method fairly and accurately allocated expenses
         to all benefiting agencies.

•   Reconciled the accounting records to the CT-DDS indirect costs reported on Form
    SSA-4513.

Also, we compared the indirect costs charged to the CT-DDS for the 2nd and
3rd quarters of FFY 2003 using the indirect rate agreement and the Cost Allocation Plan.
See Appendix C for the results of our comparison.

We determined that the computerized data used during our review is sufficiently reliable
given our audit objective and intended use of the data and should not lead to incorrect
or unintentional conclusions. This audit was conducted in accordance with generally
accepted government auditing standards. Our field work was performed from
December 2003 through March 2004. We performed the field work at the CT-DSS and
CT-DDS in Hartford, Connecticut.




                                           B-2
                                                                                  Appendix C

Comparison of Indirect Costs
(Indirect Rate vs. Indirect Cost Allocation Plan)
Fiscal Year (FY) 2003
(2nd and 3rd Quarters)                  Indirect Rate       Indirect Plan       Difference Notes
Administrative Overhead                 $     200,654       $     527,712       $ 327,058   1
Statewide Cost Allocation                     178,688             469,402          290,714  2
   Total                                $     379,342       $     997,114       $ 617,772

Notes:

1. We were unable to isolate the reason for the $327,058 administrative overhead
   increase because the indirect rate agreement did not specifically identify the
   components of this cost (i.e., general support, contract administration, fiscal
   analysis, budget, fringe benefits or accrued vacation). However, we verified the
   reasonableness of the allocation methodology under the Cost Allocation Plan.
   Therefore, we did not take exception to the $527,712 administrative costs allocated
   to the Connecticut Disability Determination Services (CT-DDS).

    Also, the Social Security Administration (SSA) had concerns regarding the proposed
    reorganization of production services (i.e., mailroom, duplicating and courier
    services) effective April 1, 2003. SSA requested1 that the State of Connecticut not
    implement this proposed change as it would have a direct impact on the CT-DDS.
    Our audit of the federally approved Connecticut Department of Social Service
    (CT-DSS) Cost Allocation Plan effective July 1, 2001, determined that the CT-DDS
    was not affected by the reorganization of the production services. In fact, the
    production service costs were specifically excluded from the CT-DDS.

2. The $290,714 statewide cost allocation increase is due to the CT-DSS allocating the
   Department of Administrative Services - Bureau of Collection Services and the
   Office of the Attorney General statewide central services costs to the CT-DDS in a
   manner inconsistent with the amount of benefits received under the Cost Allocation
   Plan. Whereas, the indirect rate agreement excluded the Department of
   Administrative Services - Bureau of Collection Services and the Office of the
   Attorney General statewide central services costs. Therefore, we determined that
   $287,442 of the $290,714 or approximately 99 percent of the statewide cost
   allocation increase was the result of this improper allocation. However, these costs
   may be allowable2 and allocable to the Department of Health and Human Services,
   the Office of Child Support Enforcement, Administration for Children and Families
1
 SSA’s Boston Regional Commissioner Memorandum dated March 18, 2003.
2
 Section 455 (42 United States Code § 655) limits the amount paid to each State to either 80 percent for
data processing, 90 percent for paternity testing or 66 percent for operational costs.


                                                  C-1
which has Federal oversight responsibility for State Title IV-D Child Support
programs.




                                        C-2
               Appendix D
SSA Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      July 20, 2004                                                            Refer To: S2D1G5/DI-
                                                                                    16/ORC-2004-5866

To:        Steven L. Schaeffer
           Assistant Inspector General for Audit

From:      Manuel J. Vaz /s/
           Regional Commissioner
           Boston

Subject:   Indirect Costs Claimed by the Connecticut Disability Determination Services (CT DDS)
           (A-15-03-23041) (Your Memo Dated July 2, 2004) – REPLY

           We concur fully with the finding in this audit that the indirect costs claimed by the state of
           Connecticut for several statewide central services were not reasonable and did not adhere to the
           intent of OMB Circular A-87. Clearly, we never want to pay for services that we do not receive.

           Finding

           This audit was conducted at our request because of concerns we had with the increased indirect
           costs when the State of Connecticut started using a cost allocation plan. We did question all of
           the indirect services provided by the state to the CT DDS. After a careful review, we met with
           the state, the contractor writing the cost allocation plan, and the federal negotiator. Together, we
           scrutinized the costs and services that the DDS receives. Subsequent to that meeting, we
           continued to work closely with the DHHS cognizant agency to make adjustments. In the end, the
           DHHS, Division of Cost Allocation (DCA) negotiator assured us that the final negotiated plan
           had reasonable services and costs, and we therefore accepted it as the final agreement. Even with
           our substantial involvement, your auditor still found almost a half million dollars a year of
           “unreasonable” costs.

           Recommendations

              1. We concur that the state of Connecticut should return $287,442 for the 2nd and 3rd quarters
                 of FFY2003.

              2. We concur that the indirect costs for the 4th quarter of SFY2003 should exclude central
                 services costs for services we do not receive or are not in proportion to the relative
                 benefits received by the DDS.




                                                           D-1
   3. We concur that the state of Connecticut should distribute statewide central service costs to
      the DDS according to benefits received (and in accordance with OMB Circular A-87).

   4. We are unclear concerning the final recommendation and request further clarification of
      its purpose. Are you asking that we request DHHS-DCA to reopen and amend the plan to
      exclude these central service charges?

We are pleased with the results of this audit. These significant savings will allow us to devote
these resources to claims processing activities. We want to extend our appreciation to your
auditors for their cooperation and diligence.

Please contact me or your staff may contact Roni Brown of our Center of Disability at (617)
565-2390.

cc: Associate Commissioner
    Office of Disability Determinations




                                               D-2
                        Appendix E
State Agency Comments
E-1
E-2
E-3
E-4
E-5
E-6
E-7
E-8
E-9
E-10
E-11
E-12
E-13
E-14
E-15
E-16
E-17
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Frederick C. Nordhoff, Director, Financial Audit Division

   Victoria Vetter, Audit Manager, (410) 966-9081

Acknowledgments

In addition to those named above:

   Mark Meehan, Auditor-in-Charge

   Ronald Anderson, Auditor

   Donna Parris, Auditor

   Annette DeRito, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-15-03-23041.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
